HHS/OIG-Audit--"Review of Costs Claimed by Staff Builders Home Health Care, Inc., (A-04-97-01166)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Costs Claimed by Staff Builders Home Health Care, Inc." (A-04-97-01166)
April 19, 1999
Complete
Text of Report is available in PDF format (1.22 mb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final audit report estimates that Staff Builders Home Health Care, Inc. was overpaid Medicare funds totaling at least
$2.3 million in Calendar Year 1996 for services that did not meet Medicare reimbursement requirements. A statistical sample
of 100 claims disclosed unallowable payments for: (1) 267 services included in 16 claims that were not reasonable or necessary
in the opinion of medical personnel; (2) 92 services included in 10 claims that were provided to beneficiaries who were
not homebound; and (3) 70 services included in 6 claims for home health aide services provided to beneficiaries who had
contracted with private agencies to receive similar type services, therefore, the aide services were unnecessary. We recommended
that the Health Care Financing Administration (HCFA) instruct the Fiscal Intermediary (FI) to recover overpayments of $2.3
million, and require the FI to instruct Staff Builders on its responsibilities to properly monitor subcontractors for compliance
with Medicare regulations. The HCFA concurred with our recommendations.